IN THE SUPREME COURT OF THE UNITED STATES
No.
MACHIAVELLI FARRAKHAN SIBERIUS
Plaintiff - Petitioner,
v.
AMERICAN PUBLIC UNIVERSITY SYSTEM, INC.; PRESSLEY RIDGE;
WEST VIRGINIA DEPARTMENT OF EDUCATION, et at
Defendants - Respondents,
CERTIFICATE OF SERVICE
A true and correct copy by the plaintiff/petitioner, Machiavelli Farrakhan
Siberius, was served on March 16, 2021, using the United States Postal Service. I hereby
certify that I mailed the foregoing paper, "Motion for Leave of Court, to Extend Length of
Writ of Certiorari," with the Clerk of the United States Supreme Court. The
defendants/respondents on the service list will receive a copy of the filing from the United
States Postal Service.

DOCUMENTS:
H Motion, Extend Length of Writ of Certiorari
is
Plaintiff—Petitioner, Pro Se:
px4t, of A-vf
Subscribed and sworn to before
This

day of/44e6

IP Pc

Datelkh 1114
ftw-1

202-1

P-4# (304) 210-6097

, 20
OFFICIAL SEAL
Notary Public., State of West Virginia

(NOTARY PUBLIC)
My commission Expires

Alf,c/•P",A

1/11/

CAREY D. CLEVENGER
Parkersburg and Wood Co. Public Library
3100 Emerson Ave.
Parkersburg, WV 26104

eaffifflimien @limo Av4

§§§d

IN THE SUPREME COURT OF THE UNITED STATES
No.
Affidavit, Proof of Service
Motion for Leave of Court, to Extend Length of Writ of Certiorari
Derivation: "Requesting Permission Prior to Docketing Case at U.S. Supreme Court"
The U.S. Court of Appeals for the Fourth Circuit, denied the petition for rehearing
and rehearing en bane for Case No. 19-7400 (2:18-cv-01125) on date: September 29, 2020.
Due Date: Writ of Certiorari are 150 days, due to COVID-19 (ORDER LIST: 589 U.S.); The
Office of Clerk's letter dated March 10, 2021, demanding a resubmitted petition within 60
days, due May 8, 2021 for the plaintiff-petitioner.
Plaintiff — Petitioner: MACHIAVELLI FARRAKHAN SIBERIUS
Attorney: Pro Se Litigant, at PO Box 1162, Parkersburg, WV 26102.
Mail: USPS only. No mail by CM/ECF system at the U.S. Supreme Court. [Paid Filing]
Service List
Defendant: American Military University & American Public University
Defendant — Respondent: AMERICAN PUBLIC UNIVERSITY SYSTEM, INC.
Attorney: Allison B. Williams & Larry J. Rector
Mail: 400 White Oaks Boulevard, Bridgeport, WV 26330
Defendant — Respondent: WEST VIRGINIA DEPARTMENT OF EDUCATION
Attorney: J. Victor Flanagan & Katie L_ Hicklin Luyster
Mail: 901 Quarrier Street, James Mark Building, Charleston, WV 25301
Defendant — Respondent: PRESSLEY RIDGE
Attorney: Joseph Selep & Dara A. DeCourcy
Mail: 310 Grant Street, Suite 3000, Pittsburgh, PA 15219

IN THE SUPREME COURT OF THE UNITED STATES
No.
MACHIAVELLI FARRAKHAN SIBERIUS, I,
Plaintiff - Petitioner,
v.
AMERICAN PUBLIC UNIVERSITY SYSTEM, INC.; PRESSLEY RIDGE;
WEST VIRGINIA DEPARTMENT OF EDUCATION, et al.
Defendants - Respondents,
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 37.5 & 21.4, I certify that the motion for leave of court,
pursuant to rule 33.1(d) & 22, to extend length of writ of certiorari contains 1,424 words,
excluding the parts of the petition that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the
foregoing is true and correct.

Executed on February 25, 2021

Petitioner-Plaintiff, Pro se Litigant

